<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Graham, Feinstein, and Udall.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ, U.S. 
            AIR FORCE (Retired), UNDER SECRETARY FOR 
            NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        BRIGADIER GENERAL STEPHEN L. DAVIS, UNITED STATES AIR FORCE, 
            PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR MILITARY 
            APPLICATIONS
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE
            NUCLEAR NONPROLIFERATION
        ADMIRAL JAMES F. (FRANK) CALDWELL, JR., UNITED STATES NAVY, 
            DEPUTY ADMINISTRATOR FOR OFFICE OF NAVAL
            REACTORS


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    As I was saying to Senator Feinstein, my co-chairman in 
effect, both Senator McConnell and Senator Schumer were saying 
yesterday that Senator McConnell hopes to begin the 
appropriations process on the floor on April 18. Senator 
Schumer said he intended to support having an appropriations 
process, and the Democrats have all written Senator McConnell 
saying they want one. It looks like everybody wants an 
appropriations process this year, so we're hoping very much 
that's possible. And Senator Feinstein and I will work with our 
House committee chairs to try to make ours one of the first 
bills that's available to the majority leader to bring to the 
floor. We hope to do it in a bipartisan way. And if there are 
controversial amendments, we hope those will be offered on the 
floor of the Senate rather than in the committee.
    This afternoon, we are having a hearing to review the 
President's fiscal year 2017 budget request for the National 
Nuclear Security Administration. Senator Feinstein and I will 
each have an opening statement. I will then recognize each 
Senator for up to 5 minutes for an opening statement, 
alternating between the majority and the minority in the order 
in which they arrived.
    We will then turn to our witnesses for their testimony. 
General Klotz will present testimony on behalf of the National 
Nuclear Security Administration. And we'll include the full 
written statements of all the witnesses in the record. After 
General Klotz, Senators will then be recognized for 5 minutes 
of questions each.
    First, I would like to thank our witnesses for being here, 
and also Senator Feinstein, an exceptional co-chairman of this 
committee. We work together regardless of which party has the 
majority and usually come up with a pretty good result for the 
country.
    Our witnesses today include Lieutenant General Frank Klotz, 
Administrator of the NNSA (National Nuclear Security 
Administration); Brigadier General S.L. Davis, Principal 
Assistant Deputy Administrator for Military Applications; Ms. 
Anne Harrington, Deputy Administrator for Defense Nuclear 
Nonproliferation; and Admiral Frank Caldwell, Deputy 
Administrator for Naval Reactors.
    NNSA is a semi-autonomous agency within the Department of 
Energy that's responsible for a vital mission, managing our 
nuclear weapons stockpile, reducing global dangers posed by 
weapons of mass destruction, and providing the Navy with safe 
and effective nuclear power. This is the subcommittee's fourth 
hearing this year on the President's budget request.
    NNSA has an important national security mission, but faces 
many challenges. We'll have to make some hard decisions on the 
most important priorities.
    The President's 2017 budget request is $12.9 billion, an 
increase of 2.9 percent over the fiscal year 2016. The focus of 
my questions today will be on four main areas: one, keeping 
critical projects on time and on budget, that is a major 
priority of Senator Feinstein and of mine; two, effectively 
maintaining our nuclear weapons stockpile; three, supporting 
our nuclear Navy; and four, maintaining our vital nuclear 
workforce.


                           project oversight


    NNSA is responsible for three of the largest construction 
projects in the Federal Government: the Uranium Facility in 
Tennessee, the MOX Fuel Fabrication Facility in South Carolina; 
and the Plutonium Facility in New Mexico. Combined, these 
projects could cost more than $20 billion to build, and over 
the past 4 years, Senator Feinstein and I have worked hard to 
keep costs from skyrocketing. We want to make sure that hard-
earned taxpayer dollars are spent wisely and that these 
projects are on time and on budget.
    We have focused most of our oversight on the Uranium 
Facility in Tennessee for the past 5 years. We asked for a Red 
Team review headed by Oak Ridge National Laboratory Chief Thom 
Mason to review the project, which recommended ways to get it 
back on track. We said that the project had to be completed by 
2025 with a cost of no greater than $6.5 billion and that the 
design had to be at least 90 percent completed before we even 
began construction of the nuclear facility. We urged the 
Department to take aggressive steps to get costs under control 
so we could meet these goals.
    The facility is off to a good start, but there is a lot 
more work to do. I am going to ask you more today about the 
Uranium Facility, particularly about your schedule for 
completing the design and when you anticipate construction can 
begin.
    I would also like to discuss the MOX Facility in South 
Carolina. You have proposed that we stop construction of the 
MOX Fuel Fabrication Facility and recommended that Congress 
fund a different process called Dilute and Disposal. You've 
said the Dilute and Disposal alternative will cost less, 
actually a lot less, and get the material out of South Carolina 
much sooner than if we continue to fund MOX.
    General Klotz, I am particularly interested in your plan 
for dealing with the 13 tons of plutonium that are currently in 
South Carolina, and ask that you address this either in your 
opening statement or questions.


                effectively maintaining nuclear weapons


    Another major part of your budget maintains our nuclear 
weapons stockpile, and I want to make sure we're spending those 
dollars effectively. The budget request includes $1.3 billion 
to continue the four ongoing life extension programs, which fix 
or replace components in weapons systems to make sure they're 
safe and reliable. The work must be done, but life extension 
programs are very expensive, so they need to be properly 
managed. I will ask you about that today.


                      supporting our nuclear navy


    Naval Reactors is responsible for all aspects of nuclear 
power for our submarines and aircraft carriers. Naval Reactors 
has a lot on its plate right now. They are designing a new 
reactor core for the next class of submarines, refueling a 
prototype reactor, and building a new spent fuel processing 
facility. In addition, you have to support the day-to-day 
operation of 73 submarines and 10 aircraft carriers, including 
a total of 97 operating reactors. You have about the same 
number of operating reactors that we have in the commercial 
world.
    The small nuclear reactors that Naval Reactors designs and 
oversees have had an impeccable safety record for more than 60 
years. There has, I believe, never been a reactor accident.
    While life extension programs provide the opportunity to 
maintain vital skills in many areas, now moving on to those, 
they do not exercise all of the skills needed for a healthy 
weapons program.
    When I had the opportunity to talk to Admiral Caldwell 
about the Naval Reactors program last week, he told me about 
his technical base, the men and women who respond when our 
ships are at sea. I would like to hear more today about that.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the president's fiscal year 2017 budget 
request for the National Nuclear Security Administration, a semi-
autonomous agency within the Department of Energy that is responsible 
for managing our nuclear weapons stockpile, reducing global dangers 
posed by weapons of mass destruction, and providing the Navy with safe 
and effective nuclear power.
    This is the Subcommittee's fourth hearing this year on the 
president's budget request, and I look forward to hearing our 
witnesses' testimony.
    The National Nuclear Security Administration, or NNSA, has an 
important national security mission, but faces many challenges. That's 
why we need to do what we were sent here to do--to govern.
    Like last year, we will have to make some hard decisions so we can 
continue to fund the most important priorities.
    The president's fiscal year 2017 budget request for the NNSA is 
$12.9 billion, an increase of $357 million (or 2.9 percent) higher than 
the fiscal year 2016 enacted level.
    Today, I'd like to focus my questions on four main areas:

    1) Keeping critical projects on time and on budget;
    2) Effectively maintaining our nuclear weapons stockpile;
    3) Supporting our nuclear Navy; and
    4) Maintaining our vital nuclear workforce.
            keeping critical projects on time and on budget
    The NNSA is responsible for three of the largest construction 
projects in the Federal government: the Uranium Processing Facility in 
Tennessee; the MOX Fuel Fabrication Facility in South Carolina; and the 
Plutonium Facility in New Mexico.
    Combined, these projects could cost more than $20 billion dollars 
to build, and over the past 4 years, Senator Feinstein and I have 
worked hard to keep costs from skyrocketing. We want to make sure hard-
earned taxpayer dollars are spent wisely and that these projects are on 
time and on budget.
    Senator Feinstein and I have focused much of our oversight on the 
Uranium Processing Facility in Tennessee over the past 5 years.
    We asked for a Red Team review of the project, which recommended 
ways to get it back on track.
    We said the project had to be completed by 2025 with a cost no 
greater than $6.5 billion, and the design had to be at least 90 percent 
completed before we began construction of the nuclear facilities. We 
urged the Department to take aggressive steps to get costs under 
control.
    The Uranium Processing Facility is off to a good start, but there's 
a lot more work to be done.
    I'm going to ask you more today about the Uranium Processing 
Facility, particularly about your schedule for completing the design 
and when you anticipate construction can begin.
    I'd also like to discuss the MOX Fuel Fabrication Facility in South 
Carolina. The NNSA has proposed that we stop construction of the MOX 
Fuel Fabrication Facility and recommended that Congress fund a 
different process, called Dilute and Disposal.
    You have said that the Dilute and Disposal alternative will cost 
less, and get the material out of South Carolina much sooner than it 
would if we continue to fund MOX.
    General Klotz, I am particularly interested in your plan for 
dealing with the 13 tons of plutonium currently in South Carolina, and 
ask that you address this in your opening statement.
              effectively maintaining our nuclear weapons
    Another major part of the NNSA's budget maintains our nuclear 
weapons stockpile, and I want to make sure we are spending taxpayer 
dollars effectively.
    The budget request includes $1.3 billion to continue the four 
ongoing life extension programs, which fix or replace components in 
weapons systems to make sure they're safe and reliable.
    This work must be done--but life extension programs are very 
expensive, so they need to be properly managed.
    I will ask you today whether you will be able to meet your 
production deadlines on time and on budget.
                      supporting our nuclear navy
    Naval Reactors is responsible for all aspects of nuclear power for 
our submarines and aircraft carriers.
    Naval Reactors has a lot on their plate right now--they are 
designing a new reactor core for the next class of submarines, 
refueling a prototype reactor, and building a new spent fuel processing 
facility.
    In addition, Naval Reactors supports the day-to-day operations of 
73 submarines and 10 aircraft carriers--including a total of 97 
operating reactors.
    The small nuclear reactors that Naval Reactors designs and oversees 
have had an impeccable safety record for more than 60 years; there has 
never been a reactor accident.
                maintaining our vital nuclear workforce
    While life extension programs provide the opportunity to maintain 
vital skills in many areas, they do not exercise all of the skills 
needed for a healthy weapons program.
    When I had the opportunity to talk to Admiral Caldwell about the 
Naval Reactors program last week, he told me about his ``technical 
base''--the men and women who respond when our nuclear ships at sea 
have a problem.
    I'd like to hear more from the witnesses today about the challenges 
they face in maintaining the needed skills within their workforce, and 
what they are doing to make sure they have the right skills to meet 
their important missions.

    Senator Alexander. With that, I would recognize Senator 
Feinstein to make her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman, and I 
think you know how much I respect you. And to the panel, I want 
to say welcome. And this is one of the best parts of working in 
the Senate, that you can work with somebody you respect, that 
you work out differences of opinion that he gives on some, I 
give on some, and for some reason, it all works. I wish we 
could do more of that.
    So thank you, Senator Alexander.
    As you said, NNSA's overall request is a 3 percent increase 
in fiscal year 2016, but, and I want to talk about this for a 
minute, the nonproliferation program sees a 7 percent decrease, 
and I am a strong proponent of that program. Compared to 2010, 
the fiscal year 2017 request for weapons is a $2.9 billion 
increase. I think that's very difficult for me. The 
nonproliferation program request is a $300 million decrease 
from its peak in fiscal year 2012, General. The nonprogram is 
down $500 million, while weapons program's budget continues to 
climb. ``Why?'' I ask.
    General, your appearance here today is 2 weeks before the 
final Nuclear Security Summit, where 50 countries will gather 
to discuss ways to further strengthen nuclear security measures 
and cooperation. I think it was in Prague in 2009 that 
President Obama committed to locking down all vulnerable 
nuclear materials in 4 years. That time has passed. The 
administration has made great strides toward that goal and has 
further reduced the dangers of nuclear terrorism since that 
time.
    I'll give you a few examples: removal of over 3,800 
kilograms of plutonium and highly enriched uranium; removal of 
42,000 high-priority radioactive sources, such as cesium and 
kobalt, that can be used in a dirty bomb; conversion of 23 
reactors from use of highly enriched uranium to low-enriched 
uranium; and installation of more than 400 fixed and mobile 
detectors in 43 countries. I congratulate you, and that's very 
important to me. And yet, even with these accomplishments, 
nuclear material is still obtainable and attractive to 
criminals and terrorists.
    A recent article by the Center for Public Integrity brings 
some information on nuclear smuggling out of the shadows. There 
have been 20 reported nuclear material interdictions in Europe 
and Russia since the fall of the Soviet Union. In some cases, 
smugglers were attempting to move significant quantities of 
highly enriched uranium, and in others, it appears to just be 
small samples with the promise of bigger things. It has been 
openly reported that a cache of highly enriched uranium went 
missing in Russia after the end of the Cold War. The 
substantial success in securing border crossings around Russia 
is helping to prevent this material from making its way to the 
United States. The worsening economy in Russia, the rise of the 
Islamic State in particular, and I deal with a lot of that on 
the Intelligence Committee, and the fear that one group or 
another gets some form of dirty bomb, and the chaos spreading 
from the Middle East into Europe tells me now is not the time 
to let down our guard on nuclear security.
    But on the weapons side of NNSA, all I see is unrestrained 
growth. I understand that the nuclear weapons complex needs to 
improve its infrastructure. No problem. NNSA reports a $3.2 
billion facility maintenance backlog, and the $400 million 
increase in its fiscal year 2017 budget request is largely 
dedicated to halting the growth of that maintenance back 
deficit, as I understand, and obviously, I think we both 
support that.
    But the budget for nuclear weapons just seems to keep 
growing. A 45 percent head--excuse me--increase since 2001. I 
almost said ``hedge'' because I very much believe that it's 
very wasteful to have a hedge at 3 to 1, and one day we have to 
have the courage to do something about that. But there is more 
to come. Warhead life extension programs, construction of the 
Uranium Processing Facility, the Plutonium Facility, the 
reactor for the Ohio-class replacement submarine, will all 
demand higher spending levels in the next 5 to 10 years, and 
this doesn't include projects for which NNSA has not budgeted 
for, such as new component manufacturing facilities or new 
science facilities.
    According to your budget request, spending on weapons is 
projected to grow another $1.3 billion over the next 5 years to 
$10.5 billion. I'm really going to have a great deal of trouble 
supporting that. By comparison, the nonproliferation spending 
is projected to grow only $300 million. Importantly, that 
assumes that MOX, funded out of nonproliferation, is stopped, 
deemed to be too costly to continue to proceed with. So the 
question comes, What is the alternative and that cost?
    In the area of warheads and new facilities, NNSA's 
management record, candidly, although I think it's better, does 
not inspire confidence. Rather, the history of cost growth and 
schedule slippages suggests that even more money will be 
required than currently projected. So where does it end and how 
much is enough? Outside of MOX, I don't see tough choices being 
made. I just see more money for weapons and less money for 
everything else.
    Since it met its 2013 goals for locking down nuclear 
materials, NNSA has pushed out the goals and milestones for 
their nonproliferation efforts. For example, work in securing 
4,400 radiological facilities that was to be completed by 2022 
now won't be done until 2033, obviously extended by 10 years. 
In some cases, the work has become more technically and 
diplomatically difficult, and we understand that, but it's also 
true that the nonprobudget has seen a steady decline since 
2012.
    Now, I don't believe we should or can sacrifice our ongoing 
efforts in nuclear security on the altar of our nuclear weapons 
stockpile. So I look forward to discussing this issue with you 
and our witnesses today. And I hope I can count on you to take 
a measured and reasonable approach to these matters.
    So, General, thank you, and I welcome you.
    Senator Alexander. Senator Udall, would you like to make an 
opening statement?

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Yes, just briefly. And I don't think I'll 
take all my time, but I just want to welcome and greet General 
Klotz for being here.
    I really enjoyed visiting with you in my office within the 
last week or so about many of the big issues facing the NNSA 
and the other witnesses here today, Deputy Administrator 
Harrington, Brigadier General Davis, and Admiral Caldwell. 
Thank you for being here and thank you for your service to the 
country. I think it's terrifically important the work that you 
do. And as you know, New Mexico's two national labs are a 
critical part of the NNSA's infrastructure and provide 
indispensable support for your mission to keep the Nation's 
stockpile safe, reliable, and secure.
    At Sandia National Laboratory, they've hired 35 percent of 
their current staff in the last 5 years to support the life 
extension projects that are going on there. And at Los Alamos, 
the lab is embarking on plans to revitalize Cold War era 
infrastructure. And I couldn't agree more with both the 
chairman and the co-chairman that we need to keep our costs 
under control, but we also need to do the job right. I don't 
think there's any doubt about that.
    I'm going to focus my questions today on when we talk about 
cost control, the big project they're working on at Sandia is 
the B61. The B61, the trend has been to keep it within budget 
and to do it on time, and I'm wondering, what are the lessons 
there? Because I think that we have done a good job in that 
respect.
    And then I would like to ask about how much NNSA budgets 
need to increase to address the aging stockpile. You all know 
that that's an issue that's out there. And then there is a GAO 
report on the plutonium infrastructure strategy, and they 
raised some issues there, and I'm going to ask about that and 
where we're headed on that plutonium infrastructure strategy.
    All of this costs money. We need to keep the budgets under 
control, but as I said, we need to do it right. And I thank you 
again for your service.
    Mr. Chairman.
    Senator Alexander. Thanks, Senator Udall.
    At this time, we'll turn to General Klotz, who will present 
testimony on behalf of the National Nuclear Security 
Administration.
    General Klotz.

         SUMMARY STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ

    General Klotz. Thank you, sir.
    Chairman Alexander, Ranking Member Feinstein, Senator 
Udall, thank you for the opportunity to present the President's 
fiscal year 2017 budget request for the Department of Energy's 
National Nuclear Security Administration. We value this 
committee's leadership in national security as well as its 
robust and abiding support for the missions and the people of 
NNSA.
    As you rightly pointed out, our budget request, which 
comprises more than 40 percent of DOE's budget, is $12.9 
billion, an increase of nearly $357 million, or 2.9 percent, 
over the fiscal year 2016 enacted level. The budget request 
continues the administration's unwavering commitment to NNSA's 
important and enduring missions. These missions are defined in 
the NNSA's Strategic Vision, which we released last year and 
which is available on our website, and they include to maintain 
a safe, secure, and effective nuclear weapons stockpile without 
nuclear explosive testing, to prevent, counter, and respond to 
the threat of nuclear proliferation and nuclear terrorism, and 
to support the capability of our nuclear-powered Navy to 
protect American and allied interests around the world.
    To succeed, NNSA must maintain crosscutting capabilities 
that enable each of our core missions. These crosscuts focus on 
advancing science, technology, and engineering, supporting our 
people in modernizing our infrastructure, and developing a 
management culture focused on safety, on security, and on 
efficiency, adopting the best practices in use across the 
government as well as in the commercial world.
    The budget materials and briefings that we have provided 
describe NNSA's major accomplishments in 2015 as well as the 
underlying rationale for our budget proposal for fiscal year 
2017.
    Let me just briefly highlight a few of the points here.

                       NUCLEAR WEAPONS STOCKPILE

    First and foremost, the United States has maintained, as I 
said, a safe, secure, and effective nuclear weapons stockpile 
without nuclear explosive testing now for over 20 years. As a 
result of the funding provided by this Congress and supported 
by this subcommittee, and the significant improvements NNSA has 
made in program management over the past 2 to 3 years, all of 
our life extension programs, or LEPs, and major alterations are 
on schedule and within budget.
    NNSA's science and technology base also continues to yield 
critical modeling and simulation data and to deploy 
increasingly capable high-performance computing in support of 
stockpile stewardship. Last year, for example, the National 
Ignition Facility at Lawrence Livermore Laboratory increased 
its shot rate, its experiment rate, from 191 in 2014 to 356 in 
2015, an 86 percent increase. Our budget request also supports 
the recapitalization of NNSA's aging research and production 
infrastructure, most notably at the facilities where we perform 
our major uranium, plutonium, tritium, and other commodity 
operations. Of significance, NNSA completed the first sub-
project for the Uranium Processing Facility at Oak Ridge, 
Tennessee, on time and millions of dollars under budget.

                    DEFENSE NUCLEAR NONPROLIFERATION

    This year's request for the defense nuclear 
nonproliferation account, as has already been pointed out, is 
6.8 percent lower than the fiscal 2016 enacted level, for two 
reasons. First, prior year carryover balances are available to 
execute several programs in this mission space. And secondly, 
we propose terminating the Mixed Oxide Fuel, or MOX, 
Fabrication Facility project.
    While the administration remains firmly committed to 
disposing of surplus weapons grade plutonium, it is clear from 
independent analyses that the MOX fuel approach is 
unsustainable given the enormous costs involved. The already 
proven Dilution and Disposal alternative would enable the 
plutonium to be disposed of decades sooner than the MOX 
approach and at less than half the cost and with far fewer 
risks. In fact, 4.8 metric tons of plutonium have already been 
diluted and disposed of in this manner, demonstrating beyond 
doubt the feasibility of this approach.
    The new approach will enable us to be more responsible 
stewards of taxpayer dollars while upholding our commitment to 
dispose of surplus weapons grade plutonium more quickly. That's 
why the President's fiscal year 2017 budget request proposes 
that the Department pursue the Dilution and Disposal approach 
as the path forward and begin termination of the MOX project.
    In addition, the Department could dispose of all the 
surplus plutonium in South Carolina using the Dilute and 
Dispose approach under its current authorizations, getting the 
plutonium out of the State decades earlier than under the MOX 
approach.

                         NAVAL REACTORS PROGRAM

    The request for our third appropriations, the Naval 
Reactors program keeps pace with mission needs and continues 
NNSA's commitment to three major initiatives: the Ohio-class 
reactor plant system development, the Land-Based S8G Prototype 
refueling overhaul in upstate New York; and the spent fuel 
handling recapitalization project in Idaho. And, of course, 
Admiral Caldwell is far better prepared than I to answer any 
questions that you may have in this area.

                       MANAGEMENT AND GOVERNANCE

    For each of these missions, NNSA is driving improvements in 
management and governance. For all of our programs, we have 
instituted rigorous analyses of alternatives, defined clear 
lines of authority and accountability for Federal and contract 
program management, improved cost and schedule performance, and 
ensure that Federal project directors and contracting officers 
have the appropriate skill mix and professional certifications 
to effectively manage NNSA's work. Our budget request for 
Federal salaries and expenses reflects an increasing emphasis 
on improving program and project management across all of our 
mission pillars.
    So in closing, the nuclear security enterprise continues to 
make significant process--progress. Through disciplined careful 
planning, consistent funding, and your continued strong 
support, we believe we can make smart investments to build on 
that progress and to meet new challenges in the future.
    Again, thank you for the opportunity to appear before you 
today, and we look forward to addressing your questions.
    [The statements follow:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2017 budget request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). It is a pleasure to be 
here this afternoon. We value this Committee's strong support for the 
nuclear security mission, and for the people and institutions that are 
responsible for executing it.
    The President's fiscal year 2017 budget request for NNSA is $12.9 
billion, this is an increase of $357.5 million or 2.9 percent over the 
fiscal year 2016 enacted level. The request is approximately 43 percent 
of the DOE's total budget, and 67 percent of DOE's total 050 budget.
    The NNSA has a unique and special responsibility to maintain a 
safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; to prevent, counter, and respond to evolving and 
emerging nuclear proliferation and terrorism threats; to provide 
nuclear propulsion to our Navy as it protects American and Allied 
interests around the world; and to support our outstanding NNSA Federal 
workforce. By supporting overall growth, this budget request represents 
a strong endorsement of NNSA's vital and enduring missions, and is 
indicative of the Administration's unwavering commitment to a strong 
national defense.
    NNSA's missions are accomplished through the hard work and 
innovative spirit of a highly talented Federal and Management and 
Operating (M&O) workforce committed to public service. To provide this 
team the tools they need to carry out their complex and challenging 
task, both now and in the future, we must continue to modernize our 
scientific, technical, and engineering capabilities and infrastructure. 
In doing so, we are mindful of our obligation to continually improve 
our business practices, and to be responsible stewards of the resources 
that Congress and the American people have entrusted to us.
    The fiscal year 2017 budget request also reflects the close working 
partnership between NNSA and the Department of Defense (DoD). NNSA 
works closely with DoD to meet military requirements, support our 
Nation's nuclear deterrence capabilities and modernize the nuclear 
security enterprise. I would also note, that as in previous years, DoD 
is carrying in its fiscal year 2017 budget request separate funding in 
fiscal year 2018 and beyond that will be reallocated annually to NNSA's 
Weapons Activities and Naval Reactors.
    I want to thank the committee for its support of the fiscal year 
2016 budget request and look forward to your continuing support in 
fiscal year 2017. We have made some tough decisions and tradeoffs to 
meet both military commitments and nuclear security priorities. Without 
congressional support, modernization of our nuclear enterprise, 
implementation of our long-term stockpile sustainment strategy, and 
sustainment of our nonproliferation and prevention and response 
capabilities could be at risk. The program we have proposed is highly 
integrated and interdependent across the four accounts.
    Details of the fiscal year 2017 budget request for the NNSA follow:
                    weapons activities appropriation
    For the Weapons Activities account, the fiscal year 2017 budget 
request is $9.2 billion, an increase of $396.2 million, or 4.5 percent 
above the fiscal year 2016 enacted levels. This account provides funds 
for the Defense Programs portfolio, which is responsible for all 
aspects of the stockpile stewardship, management, and responsiveness 
programs; the enterprise-wide infrastructure sustainment activities 
managed by our Office of Safety, Infrastructure, and Operations; NNSA's 
physical and cybersecurity activities; and the secure transportation of 
nuclear materials.
Maintaining the Stockpile
    Last year, the work of the science-based Stockpile Stewardship 
Program (SSP) allowed the Secretaries of Energy and Defense to certify 
to the President for the 20th time that the American nuclear weapons 
stockpile remains safe, secure, and reliable, without the need for 
underground explosive nuclear testing. This achievement is made 
possible each year by essential investments in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities, which are staffed by NNSA's world-class scientists, 
engineers, and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2017 budget 
request is $3.3 billion, a decrease of $57.3 million, or 1.7 percent 
below the fiscal year 2016 enacted levels. These reductions will not 
restrict NNSA's ability to annually assess system performance and 
reliability or maintain the schedule for Life Extension Programs (LEP).
    The major LEPs are a fundamental part of this account. The $222.9 
million requested for the W76-1 warhead LEP directly supports the Navy 
and will keep the LEP on schedule and on budget to complete production 
in fiscal year 2019. We continue to make good progress on the B61-12 
LEP, which will consolidate four variants of the B61 gravity bomb and 
will improve the safety and security of the oldest weapon system in the 
U.S. nuclear arsenal. With the $616.1 million requested, we will remain 
on schedule to deliver the First Production Unit (FPU) in fiscal year 
2020.
    NNSA is responsible for the refurbishment of the nuclear explosives 
package and new bomb electronics, while the Air Force will provide the 
tail kit assembly under a separate acquisition program. When fielded, 
the B61-12 bomb will support both Air Force strategic long-range 
nuclear-capable bombers and dual-capable fighter aircraft, providing 
extended deterrence to our allies and partners, and allow retirement of 
the last megaton class weapon in the inventory, the B83 gravity bomb.
    In July 2015, we began Phase 6.2 (Feasibility Study and Design 
Options) for the W80-4 cruise missile warhead LEP. The fiscal year 2016 
budget request included $195 million to accelerate the FPU by 2 years 
to fiscal year 2025, a decision made by the Nuclear Weapons Council 
(NWC) in late 2014. The fiscal year 2015 budget request included $10 
million to start the program. We had initially planned a ramp-up of 
Phase 6.2 study activities beginning in fiscal year 2016 to support the 
NWC FPU decision. However, as a result of the fiscal year 2016 
continuing resolution, we were unable to begin the planned ramp-up 
activities until just recently. Furthermore, because of the delay in 
receiving fiscal year 2016 funding, the program cannot execute the full 
fiscal year 2016 enacted amount this year. As a result, a significant 
amount of the program's fiscal year 2016 funding will carry over into 
fiscal year 2017. Consequently, the fiscal year 2017 budget request is 
$25.3 million over the fiscal year 2016 budget request, rather than 
$117 million over the fiscal year 2016 budget request, as previously 
projected. While this delayed start will affect planned technology 
maturation activities in Phase 6.2A (Design Definition and Cost Study), 
we still fully expect to meet the planned FPU date in fiscal year 2025 
to support the Air Force Long Range Stand Off (LRSO) program.
    In fiscal year 2015, the NWC approved additional scope for the W88 
Alteration (ALT) 370 to meet an emerging requirement. NNSA is now 
accelerating the new Conventional High Explosive (CHE) refresh work to 
match the original ALT schedule. As a result, we are synchronizing the 
full program to transition seamlessly to the Production Engineering 
phase in February 2017. In preparation for that phase transition, NNSA 
will publish a baseline cost report by the end of this fiscal year. 
This budget request reflects these efforts and includes $281.1 million 
in fiscal year 2017 to support the FPU in fiscal year 2020.
    Also within DSW, the fiscal year 2017 budget request includes $1.3 
billion for Stockpile Systems and Stockpile Services. These programs 
sustain the stockpile pursuant to the direction given in the 
President's Nuclear Weapon Stockpile Plan (NWSP). In doing so, the 
programs deploy unique skills, equipment, testers, and logistics to 
enable the daily operations of the nation's nuclear deterrent. 
Specifically, these programs produce and replace limited life 
components (LLCs) such as neutron generators and gas transfer systems, 
conduct maintenance, surveillance, and evaluations to assess weapons 
reliability, detect and anticipate potential weapons issues such as the 
recent CHE refresh issue mentioned above, and compile and analyze 
information during the Annual Assessment process.
    The pursuit and application of technological advancements to 
enhance safety and security while reducing life cycle costs of the 
stockpile runs through all of these activities. The development of 
Integrated Surety Architectures enhancing transportation safety and 
security is an example of these efforts.
    Within DSW, the fiscal year 2017 budget request also includes 
$577.8 million for the Strategic Materials account to maintain NNSA's 
ability to produce the nuclear and other materials needed to support 
the enduring stockpile. This program includes Uranium Sustainment, 
Plutonium Sustainment, Tritium Sustainment, Domestic Uranium Enrichment 
(DUE), lithium and other strategic materials. Funding for Uranium 
Sustainment will enable enriched uranium operations in Building 9212, a 
Manhattan Project-era production facility at the Y-12 National Security 
Complex in Oak Ridge, Tennessee, to end in fiscal year 2025, and allow 
the bulk of this obsolete building to shut down. The sustainment and 
modernization of enriched uranium capabilities and the acceleration of 
Area 5 de-inventory will reduce safety and mission risks in the near 
term.
    Plutonium Sustainment funds replacement and refurbishment of 
equipment and the critical skills needed to meet the pit production 
requirements as outlined in the National Defense Authorization Act 
(NDAA) for fiscal year 2015.
    Tritium Sustainment ensures the Nation's capability and capacity to 
provide the tritium necessary to meet national security requirements, 
either through production at Tennessee Valley Authority nuclear power 
plants or by recovering and recycling tritium from returned gas 
transfer systems.
    The DUE program continues its efforts to ensure that we have the 
necessary supplies of enriched uranium for a variety of national 
security needs.
    The fiscal year 2017 budget request also includes $69 million for 
Weapons Dismantlement and Disposition, an increase of $16.9 million, 
32.7 percent above the fiscal year 2016 enacted level, which includes 
funds to support the President's goal to accelerate the dismantlement 
rate of previously retired weapons by 20 percent. This will enable NNSA 
to dismantle the weapons retired prior to fiscal year 2009 by 2021, 
rather than the original goal of 2022. It will also result in increased 
Management and Operating staff at both the Pantex Plant in Amarillo, 
Texas and the Y-12 National Security Complex.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2017 budget request is $1.9 billion, an increase of $36.2 million, 
2 percent above the fiscal year 2016 enacted level. This includes 
$663.2 million for the Advanced Simulation and Computing (ASC) Program, 
an increase of $31 million for the Advanced Technology Development and 
Mitigation (ATDM) subprogram that supports high performance computing 
on the path to exascale, and $87.1 million for Advanced Manufacturing 
Development (AMD), a decrease of $43 million. The decrease reflects a 
realignment from technology development investments to address higher 
NNSA priorities. The budget request focuses on continued investment in 
advanced manufacturing opportunities and improving the manufacturing 
processes for components that support multiple weapons to maximize the 
benefits of these investments. Advanced Manufacturing invests in 
technologies that will reduce the time and cost of current 
manufacturing methods, replaces obsolete processes, and supports 
manufacturing developments for future weapon upgrades. Additive 
Manufacturing, also known as 3-D printing, aids in developing and 
manufacturing components for stockpile and weapon technology 
applications. The overall RDT&E request reflects small increases for 
the Science Program ($442.0 million, an increase of $18.9 million) to 
achieve two subcritical experiments per year before the end of the 
FYNSP, and begin alterations to U1a tunnel complex at Nevada to prepare 
for these experiments: Inertial Confinement Fusion Ignition and High 
Yield Program ($523.9 million, an increase of $11.9 million) and the 
Engineering Program ($139.5 million, an increase of $8.1 million).
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL) in California and the OMEGA facility at the 
University of Rochester in New York. In fiscal year 2015, NIF markedly 
improved its shot-rate efficiency with over 350 key experiments 
performed (compared to 191 in fiscal year 2014) in support of the SSP. 
This level of effort represents an 85 percent increase over the 
previous year and an 18 percent increase over its goal for 2015.
    NNSA has taken major steps in high performance computing to deliver 
on its missions and play a leading role to support the President's 
Executive Order on the National Strategic Computing Initiative (NSCI). 
In 2015, Los Alamos National Laboratory (LANL) and Sandia National 
Laboratories (SNL) received the first hardware delivery for NNSA's next 
generation high performance computer, Trinity. This computer will 
initially have eight times more applications performance than the Cielo 
machine it is replacing. NNSA also continued its CORAL collaboration 
with LLNL, the DOE Office of Science national laboratories at Oak Ridge 
and Argonne, IBM, and other vendors. CORAL will help develop next 
generation computing platforms to dramatically improve our ability to 
run increasingly complex codes and will be a significant step on the 
path to exascale computing.
    NNSA collaborates with the DOE Office of Science while making these 
much needed investments in exascale computing. The fiscal year 2017 
budget request includes $95 million from NNSA for the development of 
capable exascale systems.
    Defense Programs also maintains the vitality of the broader 
National Security Enterprise. An important aspect of this effort is 
investing in Laboratory-, Site- and Plant-Directed Research and 
Development (LDRD/PDRD). Independent reviews have consistently affirmed 
the importance of the program to the long-term vitality of the labs. 
LDRD/PDRD provides basic research funding to foster innovation and to 
attract and retain young scientific and technical talent and is 
critical to the long-term sustainment of our national laboratories. 
Congressional support is essential to ensuring that we have both the 
workforce and the new developments necessary to support the nation's 
security into the future.
Improving Safety, Operations and Infrastructure
    NNSA's ability to achieve its mission is dependent upon safe and 
reliable infrastructure. The age and condition of NNSA's infrastructure 
will, if not addressed, put the mission, the safety of our workers, the 
public, and the environment at risk. More than half of NNSA's 
facilities are over 40 years old while 30 percent of them date back to 
the Manhattan Project era. The fiscal year 2017 budget request for 
Infrastructure and Operations is $2.7 billion, an increase of $442.8 
million, 19.4 percent above the fiscal year 2016 enacted level. This 
funding will help NNSA modernize and upgrade aging infrastructure and 
address safety and programmatic risks through strategic investments in 
both general purpose infrastructure and program-specific capabilities 
that directly support our nuclear weapons and nonproliferation 
programs.
    To support critical programmatic activities, we are making 
important strides in recapitalizing our aging infrastructure and 
capabilities. In fiscal year 2015, NNSA funded new and continuing 
projects to enhance or replace programmatic capabilities and address 
the risks posed by the aging infrastructure. NNSA's investment in these 
projects is vital to the revitalization of the NNSA enterprise. The 
fiscal year 2017 budget request provides funding for more than 70 
recapitalization projects. The request will also support general 
purpose infrastructure and program-specific capabilities through Line 
Item Construction projects. These projects include, for example, the 
Uranium Processing Facility (UPF), the Chemistry and Metallurgy 
Research Replacement (CMRR) project, the U1a Complex Enhancements 
Project (UCEP) in support of the Enhanced Capabilities for Subcritical 
Experiments (ECSE) portfolio, the Albuquerque Complex Project to 
replace the current inadequate facilities, and a project to expand the 
electrical distribution system at LLNL.
    One of the most worrisome of the NNSA infrastructure challenges is 
the excess facilities that pose risks to our workers, the environment, 
and the mission. While many of these facilities will ultimately be 
transferred to the DOE Office of Environmental Management for 
disposition, NNSA is focusing on reducing the risk where it can. In 
fiscal year 2015, NNSA successfully demolished our second non-process 
contaminated building at Y-12 within the past two calendar years. The 
fiscal year 2017 budget request supports a number of activities to 
continue to address excess facilities. These activities include the 
transition of the Kansas City Bannister Federal Complex to the private 
sector for environmental remediation and redevelopment, risk reduction 
activities at Alpha-5 and Beta-4 at Y-12--both of which are highly 
process-contaminated--and disposition of more uncontaminated facilities 
across the NNSA enterprise.
    Our Secure Transportation Asset (STA) program provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DoD, and other customer requirements. 
The fiscal year 2017 budget request of $282.7 million includes an 
increase of $45.6 million, 19.2 percent above the fiscal year 2016 
enacted levels, to continue asset modernization and workforce 
capability initiatives. These initiatives include: (1) restoration of 
Federal agent strength levels to meet the goal of 370; (2) the 
Safeguards Transporter (SGT) Risk Reduction Initiatives to manage the 
SGT beyond its design life; (3) development and testing of the selected 
alternative for the SGT replacement, the Mobile Guardian Transporter 
(MGT); and (4) replacement of vehicles and tractors.
    The Office of Defense Nuclear Security (DNS) develops and 
implements sound security programs to protect Special Nuclear Material 
(SNM), people, information, and facilities throughout the nuclear 
security enterprise. The fiscal year 2017 budget request is $670.1 
million, a decrease of $12.8 million, or 1.9 percent below the fiscal 
year 2016 the enacted level of $682.9 million due to one-time dedicated 
increases in fiscal year 2016. After adjusting for an fiscal year 2016 
one-time $30 million designated plus up and $13 million dedicated line 
item construction amounts for each year, the remaining fiscal year 2017 
operating request of $657.1 million is an increase of $17.2 million, or 
2.7 percent above the fiscal year 2016 enacted operating level of 
$639.9 million. The request manages risk among important competing 
demands as NNSA continues to face the challenges associated with an 
aging physical security infrastructure that must be effectively 
addressed in the coming years. To this end, DNS is conducting a Site 
Condition Review (SCR) of the physical security systems at all 
locations to facilitate the development of an enterprise-wide security 
systems upgrade and refresh strategy. This effort will identify and 
manage current and future security improvements and upgrades on a 10-
year planning cycle and includes determining the condition of critical 
security equipment and infrastructure. A final report of this effort 
will provide DOE/NNSA leadership and Congressional stakeholders with 
consolidated and up-to-date information to enable informed decisions 
for fiscal planning and programming.
    The SCR is being conducted within the context of important 
organizational improvements and management strategies published in the 
June 2015 Security Roadmap. The document establishes a clear vision and 
path forward to correcting identified security issues and promoting 
sustained performance within the NNSA security program. The Security 
Roadmap is a multi-year effort that implements key recommendations for 
improvement identified in past assessments; it includes a total of 57 
strategic initiatives covering culture, process, infrastructure, and 
workforce challenges. As of the end of 2015, DNS has completed six of 
the initiatives and is currently working on another 20 initiatives. The 
remaining 31 initiatives are pending formal initiation.
    For Information Technology and Cybersecurity, the fiscal year 2017 
budget request is $176.6 million, an increase of $19 million, or 12.1 
percent above fiscal year 2016 enacted levels. This increase will fund 
much needed improvement to the Information Technology and Cybersecurity 
program, including Continuous Diagnostic and Mitigation (CDM), 
Telecommunications Security, infrastructure upgrades for the Enterprise 
Secure Computing Network (ESN), Public Key Infrastructure (PKI), Energy 
Sciences Network (ESnet) program, and an increased Information 
Technology budget. This cybersecurity program continuously monitors 
enterprise wireless and security technologies (e.g., identity, 
credential, and access management) to meet a wide range of security 
challenges. In fiscal year 2017, NNSA plans to continue the 
recapitalization of the Enterprise Secure Network, modernize the 
cybersecurity infrastructure, implement the Identity Control and Access 
Management project at NNSA Headquarters and site elements, and 
implement all Committee on National Security Systems and PKI 
capabilities.
             defense nuclear nonproliferation appropriation
    The Defense Nuclear Nonproliferation (DNN), fiscal year 2017 budget 
request is $1.8 billion, a decrease of $132.4 million, 6.8 percent 
below the fiscal year 2016 enacted levels. This appropriation covers 
NNSA's nuclear threat reduction mission. DNN addresses the entire 
nuclear threat spectrum by helping to prevent the acquisition of 
nuclear weapons or weapon-usable materials, technologies, and 
expertise, countering efforts to acquire such weapons, materials, and 
technologies, and responding to nuclear and radiological incidents. The 
fiscal year 2017 budget request funds two mission areas under the DNN 
appropriation: the Defense Nuclear Nonproliferation Program and the 
Nuclear Counterterrorism and Incident Response (NCTIR) Program.
Nonproliferation Efforts
    NNSA made significant progress in nuclear threat reduction in 2015. 
Working with foreign partners, the Office of Defense Nuclear 
Nonproliferation removed approximately 170 kilograms of highly enriched 
uranium (HEU) and plutonium from several civilian sites; successfully 
down- blended additional HEU to achieve a cumulative total of 150 
metric tons of U.S. excess, weapons-usable HEU (approximately 6,000 
nuclear weapons worth of material); recovered more than 100,000 curies 
of disused or orphaned radioactive material; ensured the United States 
remains on track to fulfill the commitments made at the 2014 Nuclear 
Security Summit; and supported the Secretary of Energy's efforts to 
develop the Joint Comprehensive Plan of Action (JCPOA) by providing 
scientific expertise and technical options to the United States 
negotiating team.
    The Material Management and Minimization (M\3\) program provides an 
integrated approach to addressing the threat posed by nuclear materials 
through a full cycle of materials management and minimization. The 
primary objective of the program is to achieve permanent threat 
reduction by minimizing and, when possible, eliminating weapons-usable 
nuclear material around the world. The fiscal year 2017 budget request 
is $341.1 million, an increase of $24.5 million, 7.7 percent above the 
fiscal year 2016 enacted levels. This funding increase will accelerate 
reactor conversions in Kazakhstan and in the United States, as well as 
initiate the critical decision process to support the dilute and 
dispose program for domestic plutonium disposition.
    The Global Material Security (GMS) program works with partner 
nations to increase the security of vulnerable nuclear and radiological 
materials and improve their ability to detect, interdict, and 
investigate illicit trafficking of these materials. The fiscal year 
2017 budget request for this program is $337.1 million, a decrease of 
$89.6 million, 21 percent below the fiscal year 2016 enacted level. 
This decrease is possible because GMS is completing its work to protect 
the remaining International Atomic Energy Agency (IAEA) Category I 
radiological sources in the United States to meet our 2014 Nuclear 
Security Summit commitment, and because GMS is committed to reducing 
its prior year carryover balances.
    The Nonproliferation and Arms Control (NPAC) program supports the 
nonproliferation and arms control regimes by developing and 
implementing programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
other nonproliferation and arms control challenges. The fiscal year 
2017 budget request will fund safeguards and export control activities, 
including efforts specifically in support of JCPOA implementation. This 
funding also supports statutorily mandated activities such as technical 
reviews of export licenses and interdiction cases, technical support 
for the negotiation and implementation of civil nuclear cooperation 
agreements (123 Agreements), and upgrades to the 10 CFR 810 
authorization process. The fiscal year 2017 budget request for this 
program is $124.7 million, a decrease of $5.5 million, 4.2 percent 
below the fiscal year 2016 enacted level. This decrease primarily 
reflects a return to baseline funding following the one-time increase 
of $3.5 million by Congress in the fiscal year 2016 budget for 
improvements in the export control process, as well as cost-savings in 
export licensing activities achieved through operational efficiencies.
    The DNN Research and Development (DNN R&D) program supports 
innovative unilateral and multi-lateral technical capabilities to 
detect, identify, and characterize (1) foreign nuclear weapons 
programs, (2) illicit diversion of special nuclear materials, and (3) 
nuclear detonations. To meet national and Departmental nuclear security 
requirements, DNN R&D leverages the unique facilities and scientific 
skills of DOE, academia, and industry to perform research, including 
counterterrorism-related R&D. The fiscal year 2017 budget request for 
this program is $393.9 million, a $25.4 million or 6.1 percent decrease 
below fiscal year 2016 enacted levels. The decrease in funding reflects 
projected savings resulting from a reduction in planned activities for 
arms control-related R&D and a return to the baseline Nuclear 
Detonation Detection (NDD) program after development of an initial 
mitigation path for supply chain interruptions.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. Currently, the MOX Fuel Fabrication Facility (MFFF) is 
the only project in this program; however, the fiscal year 2017 budget 
request terminates the MOX project. The Department will complete pre-
conceptual design for the dilute and dispose approach to establish 
Critical Decision-0 (CD-0), Approve Mission Need, and begin conceptual 
design in late fiscal year 2017. The fiscal year 2017 budget request of 
$270 million will be used to bring an orderly and safe closure of the 
MFFF. The scope and costs will be refined in subsequent budget 
submissions when the termination plan for the MFFF project is approved.
Nuclear Counterterrorism and Emergency Operations
    DOE has adopted an enterprise-wide approach to strengthen overall 
preparedness to respond to a broad spectrum of potential emergencies. 
These emergencies include natural phenomena, such as adverse weather 
events or earthquakes, and man-made events, such as accidents or acts 
of terrorism. To better accomplish this mission, in November 2015, NNSA 
reorganized the Office of Emergency Operations and the Office of 
Counterterrorism and Counterproliferation.
    Both of these organizations are supported under the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program. In fiscal year 
2016, the NCTIR program transitioned to the DNN account in order to 
align all NNSA funding to prevent, counter, and respond to nuclear 
proliferation and terrorism. The fiscal year 2017 budget request 
includes $271.9 million to support the NCTIR program, an increase of 
$37.5 million, 16 percent above the fiscal year 2016 enacted level. 
Within NCTIR, NNSA continues to work domestically and around the world 
to prepare for and improve our ability to respond to radiological or 
nuclear incidents.
    Our counterterrorism and counterproliferation programs are part of 
broader U.S. Government efforts assessing the threat of nuclear 
terrorism and to develop technical countermeasures. The scientific 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices, including improvised nuclear 
devices (INDs), supports and informs broader U.S. Government nuclear 
security policy and guides nuclear counterterrorism and 
counterproliferation efforts, including interagency nuclear forensics 
and DoD contingency planning.
    NNSA's emergency response teams must deploy and respond with the 
most up to date equipment. The current equipment is aging, increasing 
maintenance expenses, and has started to impact NNSA's ability to 
perform its emergency response mission. The Radiological Assistance 
Program (RAP) remains the nation's premier first-response resource to 
assess a radiological incident and advise decision-makers on necessary 
steps to minimize hazards, but its effectiveness is beginning to be 
compromised by obsolete equipment. To ensure that NNSA is able to 
execute its radiological emergency response mission, RAP's equipment 
must be recapitalized regularly. Additionally, NNSA is acquiring state-
of-the-art, secure, deployable communications systems that are 
interoperable with our Federal Bureau of Investigation and DoD mission 
partners, ensuring decision makers receive real-time technical 
recommendations to mitigate nuclear terrorist threats.
    The Office of Emergency Operations is now aligned to focus on its 
core Department-wide all- hazards and complex-wide emergency management 
mission. The fiscal year 2017 budget request for this office is $34.7 
million, an increase of $9.6 million, or 38 percent above the fiscal 
year 2016 enacted level. This will improve the emergency management 
system through an enterprise-wide approach that effectively increases 
the Department's all-hazards emergency preparedness and response 
capability during complex, cascading, or enduring incidents, and more 
effectively calls upon and leverages the assets, resources, and skills 
across the DOE complex. The Emergency Operations Center (EOC) will 
continue to be the 24/7/365 single-point-of-contact for Departmental 
and interagency notifications regarding situations requiring 
centralized management such as, national emergencies, heightened 
international tension, Departmental emergencies, natural disasters, or 
acts of terrorism. The program also manages the Emergency 
Communications Network, and Continuity Programs for all of DOE, 
including NNSA. The Office of Emergency Operations will continue to 
work within the DOE to develop plans to replace the existing EOC and to 
improve the Department's capabilities to respond to emergencies.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    NNSA supports the U.S. Navy's ability to protect and defend 
American interests across the globe. The Naval Reactors Program remains 
at the forefront of technological developments in naval nuclear 
propulsion and ensures a commanding edge in warfighting capabilities by 
advancing new technologies and improvements in naval reactor 
performance and reliability.
    In 2015, Naval Reactors enabled U.S. nuclear powered warships to 
operate for another year safely and effectively, steaming more than two 
million miles in support of national security missions. Initial reactor 
start-up was achieved in the lead reactor plant of pre-commissioning 
unit (PCU) Gerald R. Ford (CVN 78), the first new design aircraft 
carrier propulsion plant in 40 years. This historic milestone 
represents the culmination of almost 20 years of dedicated and 
sustained effort by Naval Reactors and its field activities, our 
Department of Energy laboratories, nuclear industrial base suppliers, 
the Navy design team and the nuclear shipbuilders. This is the first 
step in fully testing the integrated operations of the propulsion 
plant, culminating in sea trials this spring. Finally, we continued our 
reactor plant design and reactor core manufacturing development efforts 
in support of the new design Ohio-class Replacement reactor plant, 
including the life-of-ship core.
    The Naval Reactors fiscal year 2017 budget request is $1.42 
billion, an increase of $45 million, 3.2 percent above the fiscal year 
2016 enacted level. In addition to supporting today's operational 
fleet, the requested funding will enable Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects, and 
recruiting and retaining a highly skilled work force committed to the 
Navy and the nation. The projects include (1) continuing design of the 
new reactor plant for the replacement of the Ohio-class SSBN, which 
will feature a life-of-ship core and electric drive; (2) refueling a 
Research and Training Reactor in New York to facilitate Ohio-class 
Replacement reactor development efforts and provide 20 more years of 
live reactor based training for fleet operators; and (3) building a new 
spent fuel handling facility in Idaho that will facilitate long term, 
reliable processing and packaging of spent nuclear fuel from aircraft 
carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear- powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 98 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses (FSE) fiscal year 2017 
budget request is $412.8 million, an increase of $49.1 million, 13.5 
percent above the fiscal year 2016 enacted level. The fiscal year 2017 
budget request provides funding for 1,715 full-time equivalents (FTE) 
and support expenses needed to meet mission requirements. We are 
actively engaged in hiring to that number in a thoughtful and strategic 
manner. The fiscal year 2017 budget request will support 1,715 FTEs, an 
increase of 60 FTEs (25 above the authorized 1,690) above the 
anticipated number of FTEs in fiscal year 2016, and request an 
additional 25 for a total of 1,740 FTEs in fiscal year 2018 and the 
outyears. The exact number of FTEs will be determined following a 
detailed staffing review. It also provides for a 1.3 percent cost of 
living increase and a 5.5 percent increase for benefit escalation. In 
addition, the request provides funding for additional Federal 
Background Investigations for security clearances and provides 
additional funding to the Department's Working Capital Fund, primarily 
for Office of Personnel Management (OPM) credit monitoring and the 
Department's accounting systems (iMANAGE).
    In fiscal year 2017, NNSA will continue its efforts to meet current 
and future workforce needs by analyzing how evolving missions are 
affecting job requirements. Reshaping of the workforce over the next 
several years will be essential, including identifying the right 
staffing size and skill sets and implementing professional development 
plans now and in the future. NNSA will also continue to streamline its 
operations, particularly in travel and support services, to provide a 
lean and efficient organization.
                       management and performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
NNSA is committed to managing its operations, contracts and costs in an 
effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading NNSA's effort to 
institute rigorous analyses of alternatives, provide clear lines of 
authority and accountability for Federal and contractor program and 
project management, improve cost and schedule performance, and ensure 
Federal Project Directors and Contracting Officers with the appropriate 
skill mix and professional certifications are managing NNSA's work. 
NNSA participates in the Secretary of Energy's Project Management Risk 
Committee as a means to institutionalize and share best practices 
across the Department. NNSA established the Office of Project 
Assessments, reporting directly to the Principal Deputy Administrator, 
ensuring senior leadership visibility and accountability throughout the 
Enterprise for project performance. This office generated $33 million 
in cost avoidances as a result of their independent project peer 
reviews.
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a portion of NNSAs total project portfolio, $70 million (or 5 
percent) under original budget. Significant examples in the last year 
include the Uranium Processing Facility (UPF) Site Readiness 
Subproject, which delivered $20 million under budget; Y-12's Nuclear 
Facility Risk Reduction Project, which delivered $6 million under 
budget and 11 months ahead of schedule; and LANL's Transuranic Waste 
Facility Project, which is on track to complete $3 million under 
budget. Using the Department's best practices, the UPF and Chemistry 
and Metallurgy Research Replacement Facility Projects were restructured 
into smaller more manageable subprojects, significantly reducing 
project delivery risk.
    NNSA is committed to encouraging competition and increasing the 
universe of qualified contractors, by streamlining its major 
acquisition processes. The most significant example was the competitive 
award of the Kansas City National Security Campus M&O contract, awarded 
without protest, saving taxpayers $150 million and increasing the use 
of small businesses. As an affirmation of the quality of NNSA's 
acquisition management team, only four out of 103 competitive 
procurements were protested, with NNSA winning all protests. Finally, 
NNSA exceeded its small business goal by over 20 percent, awarding $233 
million to small business in fiscal year 2015.
    NNSA will continue to focus on delivering timely, best-value 
acquisition solutions for all of our programs and projects. NNSA will 
use a tailored approach to contract structures and incentives that is 
appropriate for the unique missions and risks at each site. Our M&O 
contractors are responsible for disparate activities, ranging from 
research and development to industrial production. Accordingly, we will 
work to develop the right incentives for each circumstance and for each 
of our contracts.
                 cost estimating and program evaluation
    The Office of Cost Estimating and Program Evaluation (CEPE) 
continues to develop its capabilities to provide trusted independent 
cost and resource analysis of NNSA's programs and projects. As detailed 
in its implementation plan, the number of CEPE Federal staff will grow 
from a target of 15 in fiscal year 2016 to 18 in fiscal year 2017. CEPE 
will conduct independent cost estimates on the B61-12 LEP and W88 Alt 
370 in fiscal year 2016 and the W80-4 LEP in fiscal year 2017. CEPE is 
also institutionalizing best practices for analysis of alternatives and 
leads the corporate process to build the NNSA budget.
                               conclusion
    The NNSA performs vital activities at home and throughout the world 
in support of the nuclear security mission. Its success in addressing 
21st century challenges hinges upon the technology, capabilities, and 
infrastructure entrusted to the organization.
    Again, thank you for the opportunity to appear before you today.
                                 ______
                                 
            Prepared Statement of Admiral James F. Caldwell
    A strong Navy is crucial to the security of the United States. Navy 
warships are deployed around the world every hour of every day to 
provide a credible ``forward presence.'' With over 45 percent of the 
Navy's major combatants being nuclear powered, including 10 aircraft 
carriers, 14 ballistic missile submarines, 55 attack submarines, and 4 
guided missile submarines--it is vital that these ships are ready when 
and where our Nation needs them. In addition to supporting these 
nuclear powered combatants, Naval Reactors has also safely maintained 
and operated two nuclear powered land-based prototypes--both over 38 
years old--to conduct research and development and two Moored Training 
Ships--both over 51 years old--the oldest operating pressurized water 
reactors (PWRs) in the world. These land-based prototypes, Moored 
Training Ships, and Naval Nuclear Power Training Command train over 
3000 sailors per year to operate our naval nuclear propulsion plants.
    Our ballistic missile submarine force remains on patrol, marking 
over 60 years of peacekeeping capability through strategic deterrence. 
The Navy had 34 submarine deployments and 26 strategic deterrent 
patrols during 2015. In addition, at any given time, there were always 
at least 56 of 71 submarines deployed or on stand-by to deploy within a 
few days. Our carriers, USS Carl Vinson (CVN 70) and USS Theodore 
Roosevelt (CVN 71) completed successful deployments to the Central 
Command area of responsibility, and the USS Ronald Reagan (CVN 76) 
turned over with the USS George Washington (CVN 73) to serve as the 
forward-deployed carrier in Japan.
    This past year, we also saw the christening of the attack submarine 
PCU Illinois (SSN 786) and keel laying for the PCU Colorado (SSN 788) 
and PCU Indiana (SSN 789), our fifteenth and sixteenth Virginia-class 
submarines. We've also added another attack submarine to our force by 
commissioning USS John Warner (SSN 785), and began a program that 
delivers two Virginia-class submarines annually. In 2015, we laid the 
keel for the second Ford-Class CVN, PCU John F. Kennedy (CVN 79). We 
currently have 12 submarines and one next generation aircraft carrier 
in various phases of construction at our shipyards. Initial reactor 
start-up was achieved in the lead reactor plant of PCU Gerald R. Ford 
(CVN 78), the first new design aircraft carrier propulsion plant in 40 
years. This historic milestone represents the culmination of almost 20 
years of dedicated and sustained effort by Naval Reactors and its field 
activities, our Department of Energy laboratories, nuclear industrial 
base suppliers, the Navy design team and the nuclear shipbuilders. This 
is the first step in fully testing the integrated operations of the 
propulsion plant, culminating in sea trials this spring. Finally, we 
continued our reactor plant design and reactor core manufacturing 
development efforts to support of the new design Ohio-class Replacement 
reactor plant, including the life-of-ship core.
    The firm support of this subcommittee last year enabled safe 
operation of the fleet, Naval Reactors mandatory oversight, and 
continued progress on key projects. Naval Reactors' budget request for 
fiscal year 2017 will continue this work. The funding request is for 
$1.420 billion, an increase of $45 million (3 percent) over the fiscal 
year 2016 enacted funding level. In addition to supporting today's 
operational fleet, the requested funding will enable Naval Reactors to 
deliver tomorrow's fleet by funding three national priority projects 
and recruiting and retaining a highly skilled work force committed to 
the Navy and the nation. The projects are:
  --Continuing to design the new reactor plant for the replacement of 
        the Ohio-class ballistic missile submarine, which will feature 
        a life-of-ship core and electric drive;
  --Refueling a Research and Training Reactor in New York, to 
        facilitate Ohio-class Replacement reactor development efforts 
        and provide 20 more years of live reactor based training for 
        the fleet operators; and
  --Building a new spent fuel handling facility in Idaho that will 
        facilitate long term, reliable processing and packaging of 
        spent nuclear fuel from aircraft carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear-powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 97 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
    The requested increase in funding is also required to support the 
planned ramp up of design efforts for the new reactor plant for the 
Ohio-class SSBN Replacement--the Navy's number one acquisition 
priority. Providing unparalleled stealth, endurance, and mobility, our 
ballistic missile submarine force has delivered more than 60 years of 
continuous at-sea deterrence, and continues to be the most survivable 
leg of the nuclear triad. Ohio-class Replacement SSBN activity this 
year includes reactor plant design and component development to support 
procurement of long lead components starting in fiscal year 2019. 
Progress in these areas in fiscal year 2017 maintains schedule 
alignment with the Navy as the program moves forward to construction 
start in fiscal year 2021 while retiring technical risk and targeting 
cost reduction.
    Related to Ohio-class Replacement and the Program's training needs, 
the fiscal year 2017 budget request will support the land-based 
prototype refueling overhaul at the Kesselring Site in upstate New 
York. In fiscal year 2017, Naval Reactors will continue the core 
manufacturing work needed for the refueling overhaul, which will also 
enable timely construction of the life-of-ship core for Ohio-class 
Replacement. Further, plant service-life engineering design will be 
completed in fiscal year 2017 to ensure that the land-based prototype 
overhaul, performed concurrently with refueling, supports 20 additional 
years of research, development and training.
    The Naval Reactors fiscal year 2017 budget request also contains 
funds to continue the Spent Fuel Handling Recapitalization Project. 
After many years of funding reductions, Naval Reactors greatly 
appreciates Congressional support for this much needed project in 
fiscal year 2016, where we received the full request of $86 million. 
Congressional support in 2016 enabled progress, design, and planning 
for site preparations and long lead material procurements in fiscal 
year 2017. We will use the $100 million requested in fiscal year 2017 
to finalize key facility and equipment requirements and advance 
facility design to support establishing the Performance Baseline in 
fiscal year 2018 and the start of construction in fiscal year 2019. 
Continued Congressional support will help ensure that the facility in 
Idaho is ready to receive spent nuclear fuel from the fleet in fiscal 
year 2025. Because the new facility's capabilities are required to 
support aircraft carrier refuelings and defuelings, any delay to the 
project schedule would require procurement of additional shipping 
containers to temporarily store naval spent nuclear fuel at a cost of 
approximately $150 million for each year the project is delayed.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors can also continue 
to advance the Ohio-class Replacement and Land-based Prototype 
Refueling Overhaul, continue progress on the Spent Fuel Handling 
Recapitalization Project, and meet our environmental responsibilities.
    Naval Reactors is committed to executing our projects on time and 
on budget, and continuing the search for the safest and most cost 
effective way to support the nuclear fleet. I respectfully urge your 
support for aligning funding allocations with the fiscal year 2017 
budget request.

    Senator Alexander. Thanks, General Klotz.
    We will now begin a round of questions.

                      URANIUM PROCESSING FACILITY

    I want to ask about the big construction projects. And let 
me take just a minute on the Uranium Facility before I go to 
MOX. When do you expect the design to be 90 percent complete?
    General Klotz. We expect the design for the project to be 
90 percent complete at the--towards the end of next year, 2017.
    Senator Alexander. So that means you would expect to begin 
construction of the Uranium Facility toward the end of 2017?
    General Klotz. We might not actually begin construction at 
that time. I would have to give you a specific time in terms of 
which we actually begin construction, but as you know, because, 
as you rightly pointed out, we meet routinely with you, 
Senator, and with Senator Feinstein, to go over that. And, in 
fact, our staffs are working to schedule, as soon as we get 
past the budget hearings, a discussion on that. But as you 
know, we have broken the overall project up into several sub-
projects, one of which the site rating sub-project, as I 
mentioned in the opening statement, was completed last year, 
February of last year, for $65 million, which was $20 million 
under the budget.
    Senator Alexander. Well, I congratulate you on that, and I 
think it's important to point out that over the last 5 years 
that project has gone from skyrocketing out of control to a 
managed process. Are you on a path that you believe is on time 
and on budget, meaning no more than $6.5 billion by 2025?
    General Klotz. Yes, sir. As recommended by the Red Team, 
chaired by Dr. Thom Mason, the director of Oak National 
Laboratory, we are implementing every one of the 
recommendations in that, and we are going to deliver that 
facility at $6.5 billion by 2025.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Alexander. Since we're talking about billions, 
let's go to MOX. You said the Dilute and Dispose procedure 
could be less than half the cost of the current MOX procedure. 
What kind of dollars are we talking about?
    General Klotz. We have conducted several reviews over the 
past year, one by another Red Team chaired by Dr. Mason, of Oak 
Ridge National Laboratory, and two congressionally mandated 
independent assessments by The Aerospace Corporation. 
Consistently these reviews have concluded that the projected 
life-cycle cost of the MOX fuel approach for plutonium 
disposition will be in the range of $30 to $50 billion, and 
possibly even higher, and will require approximately $800 
million to $1 billion annually for decades to come for the life 
of the MOX fuel program.
    Senator Alexander. And the cost of the alternative 
proposal?
    General Klotz. Half or better.
    Senator Alexander. So we're talking about, according to 
those figures, saving a half billion dollars a year?
    General Klotz. Yes, sir. Or as the Secretary testified just 
a week ago at this very same place, perhaps maybe even more.
    Senator Alexander. How much excess plutonium is covered 
under the agreement with Russia?
    General Klotz. Sir, 34 metric tons.
    Senator Alexander. And how much excess plutonium is 
actually in South Carolina?
    General Klotz. Approximately 13 metric tons.
    Senator Alexander. Can all of those 13 tons in South 
Carolina be sent to WIPP (Waste Isolation Pilot Plant), that 
is, in New Mexico, under current law?
    General Klotz. Yes, sir, that is correct. And, in fact, in 
December of just last year, DOE issued its preferred 
alternative for disposing of 6 metric tons at Savannah River, 
not under the Plutonium Management Disposition Agreement that 
you were referring to, by diluting it and disposing of it at 
WIPP. And we are now in the process of finalizing a record of 
decision, announcing the decision to prepare 6 metric tons for 
eventual disposal at WIPP, and we can also, under existing 
statutory authorities, we can put the other 7 metric tons that 
are at Savannah River into WIPP.
    Senator Alexander. So there are 13 tons of plutonium in 
South Carolina.
    General Klotz. That is correct.
    Senator Alexander. Six of them, six of those tons, have 
nothing to do with the Russian agreement.
    General Klotz. Yes, sir.
    Senator Alexander. Seven do.
    General Klotz. Yes, sir.
    Senator Alexander. And you're going to take--which tons go 
first to New Mexico?
    General Klotz. The six that are not part of the agreement.
    Senator Alexander. And under existing agreements, there is 
room in the New Mexico facility for all 13 tons.
    General Klotz. That is correct, sir.
    Senator Alexander. You have previously stated that nearly 5 
tons of plutonium have already been disposed of at WIPP using 
the same process you plan to use for the 6 tons in South 
Carolina that have nothing to do with the Russian agreement. So 
is the process of disposing of plutonium by Dilute and Dispose 
well understood? Are you comfortable with it? Is it a competent 
process?
    General Klotz. Yes, sir. As I said, we have done it before. 
We understand how to do that process, and it's very well 
understood.
    Senator Alexander. How long will it take to complete the 
disposal of the 6 tons of material in South Carolina that are 
not part of the Russian agreement?
    General Klotz. Well, we'll have to do some things to speed 
up our capability of doing that. Right now, DOE plans to ramp 
up operations at Savannah River to dilute a small quantity, 
perhaps 150 kilograms per year of plutonium, over the next 2 to 
3 years. We would also further increase throughput to 
approximately half a metric ton per year for a relatively small 
amount of funding, say, $5 million over 3 years.
    Additionally, NNSA has already begun design work with money 
that was appropriated in the 2016 appropriations bill for two 
additional glove boxes that will increase our ability to dilute 
to over 1 metric ton a year, and we expect these glove boxes to 
be in place during the mid-2020s. So that's when we can really 
seriously begin moving the 6 metric tons to WIPP.
    By comparison, the MOX approach, if we followed that, the 
first metric ton of plutonium would not be processed until the 
2040s, and only if Congress can begin funding the project now 
at about $1 billion a year.
    Senator Alexander. Well, my time is up, but to summarize, 
you have testified that in your opinion and based on 
independent studies, that Congress might spend more than a half 
billion dollars more pursuing the MOX facility as opposed to 
Dilute and Dispose, so it's about half the cost or better. And, 
finally, you've said you could get all 13 tons that are now in 
South Carolina of plutonium, only 7 of which have anything to 
do with the Russian agreement, that you can get them out of 
South Carolina and into the WIPP facility much faster than you 
could using the current MOX procedure, and that under current 
authorities, you have permission--you wouldn't have to change 
the law in order to send those 13 tons to WIPP. Am I correct?
    General Klotz. Yes, sir. That's all correct.
    Senator Alexander. Thank you.
    And thanks to my colleagues for letting me go over a little 
bit.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.

                         NUCLEAR CRUISE MISSILE

    General Klotz, I recently met with Admiral Haney, the head 
of Strategic Command, regarding the new nuclear cruise missile 
and its refurbished warhead. I came away unconvinced of the 
need for this weapon. The so-called improvements to this weapon 
seem to be designed candidly to make it more usable, to help us 
fight and win a limited nuclear war. I find that a shocking 
concept. I think this is really unthinkable, especially when we 
hold conventional weapons superiority, which can meet 
adversaries' efforts to escalate a conflict. So maybe you can 
succeed where Admiral Haney did not.
    Let me ask you this question, Why do we need a new nuclear 
cruise missile?
    General Klotz. Well, thank you very much for the question, 
Senator, and let me just state at the outset, defining the--but 
I will answer your question--defining the military requirements 
is the responsibility of the Department of Defense, which 
obviously includes the Secretary of Defense, the Joint Chiefs 
of Staff, and the Commander of Strategic Command.
    Senator Feinstein. Don't bucket your view.
    General Klotz. But we accept the responsibility for 
building the warhead that goes in it. But let me just say since 
when I was in uniform, I had command of Air Force Global Strike 
Command, and, therefore, of the cruise missiles that the Air 
Force and the Department of Defense are proposing to replace. 
My sense at the time, and still is the case, is that the 
existing cruise missile, the air-launched cruise missile, is 
getting rather long in the tooth with the issues that are 
associated with an aging weapons system. It was first deployed 
in 1982, and, therefore, it is well past its service life.
    In the meantime, as you know from your work on the 
Intelligence Committee, there has been an increase in the 
sophistication and capabilities, as well as proliferation, of 
sophisticated air missile defenses around the world. Therefore, 
the ability of the cruise missile to pose the deterrent--the 
capabilities necessary to deter is under question. Therefore, I 
think just based on the aging and the changing nature of the 
threat, we need to replace a system which we've had, again, 
for--since the early 1980s with an updated variant.
    I guess I didn't convince you any more than Admiral Haney 
did.
    Senator Feinstein. I'm trying to figure out how to say it 
so that it's polite.
    [Laughter.]
    Senator Feinstein. No, you didn't convince me because this 
just ratchets up warfare and ratchets up deaths, and, you know, 
even if you go to a low kiloton, 6 or 7, it's a huge weapon. 
And I thought there was a certain morality that we should have 
with respect to these weapons. And if it's really mutual 
deterrence, I don't see how this does anything other than it's 
like the drone. The drone has been invented. It's been armed. 
Now every country wants one. So they get more and more 
sophisticated. To do this with nuclear weapons I think is 
awful. And when I talked when I came here--now, I'm probably 
the only one here that was a child when those weapons went off, 
and as the chairman has heard me say before, I was in San 
Francisco, across the Pacific from where it happened, a small 
kid, it made a profound difference to me. You know, I remember 
jumping under the desks, I remember the exploding--Barry 
Goldwater's campaign of the daisy that exploded with one, and I 
saw bodies, I saw what happened to people.
    I know a little bit about the sophistication of our 
weapons, not as much as you do, but I think there is a very 
definite morality in what we have. And I talk to people, well, 
the size is a deterrent. This is not a deterrent. All this 
means is that others will be doing the same thing. I don't want 
North Korea with a 6-kiloton nuclear cruise missile.
    And somehow I think we lose our moral authority when we 
build new nuclear weapons. I don't see any way--you know, 
there's a certain moral code any way I can vote to support 
this, and I want you to know it. If you have anything you would 
like to say, I would love to hear it.
    General Klotz. Well, first of all, Senator, I obviously 
respect your opinion, but I think on this, we have a 
fundamental disagreement. In my view, the moral approach is to 
develop a deterrent capability which poses the prospect to any 
potential adversary that they should never use nuclear weapons 
against the United States or those of our allies across the 
globe. We maintain the capability of having a deterrent by 
having systems which cannot be negated, defeated, nullified by 
any adversary, either by offensive attack or by defensive 
capabilities that they may have. And so as we're faced with the 
prospect of potential adversaries having vastly improved 
conventional--vastly improved missile and air defenses, then we 
need to make sure that----
    Senator Feinstein. Do you admit, Admiral, that we have very 
big conventional weapons?
    General Klotz. Yes, I do.
    Senator Feinstein. The biggest in the world?
    General Klotz. And Air Force Global Strike Command, which I 
used to command, had responsibility for one of those.
    Senator Feinstein. Okay. Isn't that enough?
    General Klotz. In a world armed with nuclear weapons, 
regrettably so, I think that in order to deter nuclear attack 
or the threat of nuclear attack against us or allies, we need a 
corresponding nuclear deterrent. That's my belief.
    Senator Feinstein. Okay. Well, let me go to--can I do one 
other question quickly?
    Senator Alexander. Sure.
    Senator Feinstein. What is the cost of the 3 to 1 hedge? 
Staff has tried to get those numbers, but have been unable to. 
I would like to ask that you provide it.
    General Klotz. We will provide that.
    [The information follows:]

    The U.S. nuclear stockpile is made up of warheads in three 
categories--deployed warheads, logistics spares, and hedge. The 
deployed warheads are warheads located at operational bases, and must 
be fully maintained in a ready-to-use status at all times. Logistics 
spares are warheads retained (by DoD or DOE) to facilitate the 
logistics of warhead surveillance, maintenance, and refurbishment to 
ensure the required number of warheads in the other categories is 
maintained. Hedge warheads mitigate the risk of technical failure of 
any single weapon type or delivery system at a given time.
    The number and type of warheads in the hedge depends on a number of 
factors, including the size and composition of the U.S. stockpile and 
the status of life extension efforts. Additional warheads of a type 
being refurbished may be retained temporarily (unrefurbished) as risk 
mitigation for a potential technical issue in the newly refurbished 
warheads.
    By far the largest cost of maintaining this hedge is the cost of 
refurbishing the warheads that will be retained over the longer term as 
part of the hedge. Based on current life extension program (LEP) 
estimates and projections of the future size and composition of the 
stockpile (as reflected in the Nuclear Weapons Council's current 
Requirements Planning Document), over the next 25 years the cost of 
refurbishing warheads for inclusion in the hedge is approximately $3.5-
$5.6 billion in fiscal year 2016 dollars (or 11-22 percent of the cost 
of LEPs for the warheads that would comprise the hedge at that time). 
Strategies that reduce the number of hedge warheads in future stockpile 
configurations (such as our current 3+2 strategy) will keep this 
refurbishment cost from rising above this level.
    The cost, if any, for specific surveillance and assessment of the 
hedge would be small since the warheads in the hedge are the same as 
those being surveilled and assessed in the other stockpile categories.
    Some small costs may associated with maintenance of hedge warheads 
when included in work scope associated with non-hedge counterparts, 
such as an alteration or modification. In this way they retain 
technical parity with warheads in other categories.
    It is expected that the size of the hedge can be reduced as we 
implement a 3+2 strategy for the stockpile, with three ballistic 
missile warheads and two others, one for the LRSO and another for 
gravity bombs. This strategy will allow the U.S. to minimize the size 
of the stockpile, consistent with our commitments under the Nuclear 
Nonproliferation Treaty, while adequately hedging against technical 
risk.

    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Senator Graham, is your schedule such 
that I can go to Senator Udall since he's been here?
    Senator Graham. Absolutely. He can go first.
    Senator Alexander. All right.
    Senator Udall, why don't you go ahead since you came early?
    Senator Udall. Thank you very much, Mr. Chairman.

            NATIONAL NUCLEAR SECURITY ADMINISTRATION BUDGET

    Before we get into some of the details on the upcoming 
budget, I would like to step back and take a look at the 
overall funding picture. How does this budget compare to the 
NNSA's budget request in the year of the previous 
administration, fiscal year 2008? Where are we in terms of up, 
down, on that?
    General Klotz. Well, I think a good round number for how 
much the overall NNSA budget has increased since then is about 
40 percent.
    Senator Udall. 40 percent----
    General Klotz. Maybe closer to 37 percent.

                       NUCLEAR WEAPONS STOCKPILE

    Senator Udall. Okay. And my understanding is that there is 
an incredible amount of scientific and technical work that 
needs to be done in future years as the stockpile ages and 
needs further work to keep it safe, secure, and reliable. Do 
you expect future NNSA budgets to need to increase further to 
continue to address the aging stockpile?
    General Klotz. Yes, sir, we do. And in our budget 
submission for this year, we included our projections for the 
future years' nuclear security program out through the year 
fiscal year 2021, and it shows an increase in all of the budget 
lines each of those years except for 1 year for Naval Reactors.
    And I will say right up front that there will probably be 
some additional costs which we will add there because one of 
the things we have done, and part of the management 
improvements, is to be much more rigorous about how we do 
analysis of alternatives, define mission requirements, and do 
independent cost reviews, and some of the things that are--we 
know we're going to have to pay for in the so-called outyears, 
we still have to baseline those and come in with the costs.

                              CMR FACILITY

    Senator Udall. Now, I would like to move on to the work to 
replace the aging CMR Facility at Los Alamos. The GAO report, 
which was released this month, highlighted the plutonium 
infrastructure strategy, and I'm quoting from them now, 
``Uncertain and possibly underestimated,'' and that, ``This 
uncertainty is due to the fact that NNSA has not yet determined 
the number of additional modular buildings that may be 
required,'' at the Los Alamos Lab. Where are we on this issue? 
Where do you see this going at this point in terms of the 
demands that are on you from various agencies?
    General Klotz. Well, thank you for that question. In fact, 
that is one of the lines in our future years' budget that will 
change as time goes through. And, you know, I agree with the 
GAO's assessment, but one of the reasons why that's the case is 
the GAO has been very clear in reports over the past decade or 
so that the NNSA and the DOE need to do a better job in terms 
of defining requirements, holding to those requirements, doing 
analysis of--rigorous analysis of alternatives cost 
estimations. So we need to do that process with the modules. We 
are beginning the analysis of alternatives of how we create the 
additional space at Los Alamos that we need to carry out the 
congressional mandate to produce--or demonstrate a capability 
to produce war reserve plutonium pits in the years ahead. So 
until we have that and until we can baseline the cost of that, 
we won't know for certain what the costs are.
    There's a tendency in Washington, both on the executive 
side and I would dare say on the congressional side as well, to 
ask for a number very, very early on in a project. I think 
until you have done that kind of analysis, any number you have 
is a guess. We would like to be more precise and more accurate 
in terms of providing what we think the costs will be.
    Senator Udall. And the budget includes funding for the 
initial design and development of a trusted strategic radiation 
hardened advanced microelectronics capability, which Sandia 
plays an important role supporting through the Trusted Foundry 
at the Microsystems and Engineering Science Applications, 
what's called the MESA Complex. Do you agree that the core 
competency on microsystems design at Sandia is an important 
national security asset?
    General Klotz. Absolutely. And, in fact, our only facility 
for producing radiation hardened microelectronics that can 
operate in a nuclear environment is MESA, the Microsystems 
Engineering Science Applications at Sandia National Laboratory. 
It, too, is another facility which has been around for a while 
and is a little long in the tooth, but more importantly, the 
technology in this area continues to evolve. Sandia is still 
producing chips using 6-inch silicon wafers. Industry has 
already moved on to 8-inch and projected to go even further. So 
there are things we need to do to the facility to sustain it. 
There are things we need to do to the capabilities within MESA 
to make sure that we can continue to provide this vital 
capability.
    Senator Udall. Thank you very much, General.
    I yield back, Mr. Chairman.
    Senator Alexander. Thanks, Senator Udall.
    Senator Graham.

                      EXCESS PLUTONIUM DISPOSITION

    Senator Graham. Thank you, General. The agreement with the 
Russians covers how much plutonium?
    General Klotz. 34 metric tons.
    Senator Graham. Where is the 34 metric tons located?
    General Klotz. 7 of those metric tons are at Savannah River 
now. The remainder is primarily in storage at Pantex near 
Amarillo, Texas.
    Senator Graham. So when you talk to Senator Alexander about 
13 tons at the Savannah River site, 6 of it was not covered by 
the agreement. Is that correct?
    General Klotz. That's correct. Yes, sir.
    Senator Graham. So what are we going to do with the 
material in Texas?
    General Klotz. The material in Texas would ultimately be 
slated for being turned into--being processed in a way that it 
could be diluted and then ultimately disposed of ----
    Senator Graham. Where is that going to be done at?
    General Klotz. We expect it would be done in Savannah 
River.
    Senator Graham. Do you require any legal changes to get it 
to the WIPP program?
    General Klotz. We do not require--we have statutory, 
sufficient statutory, authority to dispose of all 13 metric 
tons that are currently at Savannah River.
    Senator Graham. That's not my question. Does the statutory 
authority cover the 21 tons in Texas?
    General Klotz. We expect that we would probably have to do 
some work on statutory authorities associated with that.
    Senator Graham. Do you expect probably maybe?
    General Klotz. Probably.
    Senator Graham. No, absolutely you would.
    General Klotz. Absolutely.
    Senator Graham. Good. Do you have any agreement with the 
Russians to change course?
    General Klotz. We do not have an agreement with the 
Russians to change course, but, as you know, there is a 
provision within the agreement to--for the parties to----
    Senator Graham. Where are we at in that agreement?
    General Klotz. As the Secretary has testified just a week 
ago----
    Senator Graham. So what do the Russians say?
    General Klotz. The Russians are saying when you have a 
solid way forward--first of all, they have--the technical 
people I have talked with indicate an understanding of why we 
would want to do this and the technical aspects of it. 
Basically they've said----
    Senator Graham. So what do the Russians want in return?
    General Klotz. Well, when they--when you are ready to go 
forward----
    Senator Graham. So let's see if I got this. We're going to 
change the entire program, then we're going to go to the 
Russians and see if they're okay with it? Is that the plan?
    General Klotz. I--that is the----
    Senator Graham. That's the plan. That's a lousy plan. That 
is absolutely the dumbest friggin' plan I could think of, to 
change course and hope the Russians would agree and not know 
what they're going to charge you for it. Now, other than that, 
things are going great.
    Now, in 2001, we made a decision about MOX, to reject the 
dual strategy. 2014, or 2010, I guess it was, we signed an 
agreement with the Russians that we're going to MOX out 34 
metric tons. In 2016, we got a building, $5 billion worth, 90 
percent, 70 percent complete, and we're going to stop and start 
all over again. Is that the plan?
    General Klotz. Well, you know, we don't agree that it's 70, 
80, 90 percent.
    Senator Graham. Well, you can come and look at the damn 
thing.
    General Klotz. I have.
    Senator Graham. Okay. Is it big?
    General Klotz. It is big.
    Senator Graham. Well, it cost $5 billion, I can promise you 
that. And I think it's 70 percent. What are we going to do with 
the building?
    General Klotz. We would have to see what--what--if we----
    Senator Graham. Have you talked to anybody from New Mexico 
about their view of taking all this material?
    General Klotz. As the Secretary told you last week, he has 
informally approached----
    Senator Graham. Well, have you----
    General Klotz. Have I personally? I have talked----
    Senator Graham. Excuse me. We've informally talked to New 
Mexico. We now admit that you absolutely have to have a 
statutory change to cover the 21 metric tons. We're talking 
informally to the Russians. We're going to change the entire 
scope of the program and hope they agree with it. Is that 
pretty much where we're at? And we have no clue what we're 
going to do with this building.
    Thank you.
    Senator Alexander. General Klotz, I've got some questions 
on another subject. This--the MOX subject is one that Senator 
Feinstein and I, Senator Graham, as well as Senator McCain and 
Senator Reed, are going to continue to address in the next few 
weeks.

                  INTERIM STORAGE OF USED NUCLEAR FUEL

    Let me ask you and maybe Admiral Caldwell and maybe Ms. 
Harrington, the interim storage for used Navy fuel, building a 
new storage site for used fuel, but Admiral Klotz, that's 
temporary storage, right?
    Admiral Caldwell. Sir, I think that question is directed to 
me, sir.
    Senator Alexander. Okay, sir. That's temporary.
    Admiral Caldwell. The fuel that we're storing in Idaho is 
stored for interim----
    Senator Alexander. That means temporary.
    Admiral Caldwell. Yes, sir; it does.
    Senator Alexander. So you'll need somewhere to put it, an 
additional site. Would that fuel be eligible for Yucca 
Mountain?
    Admiral Caldwell. Yes, sir; it would be. The fuel we have 
out there today is packaged for interim storage, and it's 
packed in steel containers with concrete overpacks. Those steel 
containers are designed to last up to 10,000 years in the 
environment that we did the calculations for. And then the 
overpacks are designed to last at least 100 years.
    Senator Alexander. Yeah. But to reiterate, your site is a 
site for temporary storage.
    Admiral Caldwell. That's correct, sir.
    Senator Alexander. And it needs a permanent repository such 
as Yucca Mountain.
    Admiral Caldwell. That's absolutely correct, sir.
    Senator Alexander. Yeah. Senator Feinstein and I are 
working on as many paths as we can toward places for safe 
storage of used nuclear fuel.
    General Klotz, you proposed work on a separate repository 
for defense waste separate from Yucca Mountain, they would only 
be able to accept waste from our defense sites, which doesn't 
include used fuel from commercial power reactors like the 
reactors that are closed in California with what we call 
stranded fuel. This would have to be built with funds that 
could be used for life extension programs or other 
infrastructure. Why would we build a separate repository for 
defense waste? Why wouldn't we just put all that stuff in Yucca 
Mountain?
    General Klotz. Senator, I know the proposal, but to be 
perfectly honest, that is a project, a program, which resides 
elsewhere within the Department of Energy, not within NNSA. So 
I would have to get back to you on any specifics as far as----
    Senator Alexander. But if we spent money on a separate 
defense waste repository, it would have to come out of some of 
your funds----
    General Klotz. It would depend on which--again, whether 
it's 050 money or not, and I just don't have the granularity of 
knowledge to respond to that.

                    LOW-ENRICHED URANIUM NAVAL CORES

    Senator Alexander. Let me ask one of you on a different 
question. You've done some good work on the last several years 
converting research reactor fuel from highly enriched uranium 
to low-enriched uranium, and you're down now I think to about 
six high-performance reactors that are still fueled with highly 
enriched uranium. Why don't you spend your time and money 
developing a way to have low-enriched fuel for the Navy vessels 
instead of worrying about the last six high-performance 
reactors?
    Admiral Caldwell. Sir, thanks for the question. Low-
enriched uranium, from a military standpoint, there is no 
advantage to using that in a naval reactor plant. We use highly 
enriched uranium today, we've used it for decades, because it 
allows us to put the energy that we need to into a reactor core 
so that we can operate those ships for conceivably the life of 
the ship or for very long periods of time.
    The reason why one might consider pursuing a low-enriched 
uranium naval core would be for the United States to be able to 
take a leadership role in development of low-enriched uranium 
and to be able to do that from a nonproliferation standpoint.
    The other reason why one could consider it is because we 
need to sustain the workforce, the highly skilled workforce, 
that does this work for naval nuclear propulsion plants. That 
workforce is heavily taxed right now with the development of 
the Ohio replacement. Once that work tapers off, we're going to 
need some work to keep that workforce active and viable for 
future reactor plants.
    So where we are today is we are continuing our work on 
highly enriched uranium. If I was to go to low-enriched 
uranium, it would require me to refuel ships more frequently 
than I do today. It would require us to take ships offline and 
remove them from the operational availability. To give you some 
example of that, we're developing the Ohio Replacement to last 
for 42 years without refueling. A low-enriched uranium core 
would require at least one refueling. The Ford reactor plant 
for the new carrier is designed to have one refueling. A low-
enriched uranium core might take two or more, at the cost of 
maybe $1 billion apiece. With the Ohio  Replacement program, 
the fact that we don't refuel it saves the Nation $40 billion 
total ownership cost for that class of submarine.
    So from a military standpoint, we want to have the ships 
operating more, we want to have--reduce the time that they're 
in the yards. If you use low-enriched uranium, we would have to 
deal with even more waste, we would have to deal with different 
types of waste, because the waste generated from low-enriched 
uranium is different from highly enriched uranium. And, 
additionally, the Navy might have to go purchase more ships to 
make up for the lost operational availability. So from a 
military standpoint, highly enriched uranium does what we need 
it to do.
    Now, that all said, we were asked to develop a conceptual 
plan for developing a low-enriched uranium core for naval use. 
We have a draft report that's working its way through the Navy 
and through the Department of Energy; we're coordinating that. 
It lays out a program that would take 10 to 15 years at the 
cost of $1 billion to simply develop a low-enriched uranium 
core. Beyond that, it would take another 10 years to deploy 
that core, actually build it. So you're talking about 
technology that would take 25 years or so before it would come 
to fruition. Success could not be guaranteed, but if the 
conceptual plan lays out a plan to go look at that for 
consideration in a carrier plant, a larger plant, where you can 
put more fuel in it, probably not viable for a submarine plant, 
which is small.
    So that conceptual plant is working its way through. 
Success could not be guaranteed. It costs a substantial amount 
of money. And if I was directed to go do that kind of work, I 
would need money above and beyond what I have today to support 
today's Navy.
    Senator Alexander. Thank you. I get the impression you 
think the idea of low-enriched uranium fuel for the Navy 
vessels isn't such a hot idea.
    Admiral Caldwell. I think there is some value in being able 
to sustain my workforce, so let me amplify that.
    Senator Alexander. Yeah, well, my time is about up, but I 
think that was a good complete answer----
    Admiral Caldwell. There is one aspect of this, though, sir. 
To go to low-enriched uranium, I have to develop an advanced 
fuel system. That advanced fuel system could have benefit for a 
low-enriched uranium core or a highly enriched uranium core. So 
there could be some benefit in going down the path to sustain 
my workforce and expand the technology that we have.
    Senator Alexander. Thank you, Admiral.
    Senator Feinstein, I don't have any other questions, so 
I'll let you ask whatever you would like.

                          DEFERRED MAINTENANCE

    Senator Feinstein. I have one because I mentioned in my 
opening remarks that $3.2 billion in deferred maintenance of 
facilities, a huge sum, I don't think I need to say that, 
actually. So, General Klotz, in your plans, to what extent is 
NNSA looking at alternative approaches for addressing the 
problem, such as reducing the number of facilities or 
consolidating functions?
    General Klotz. Thank you very much. You're right, we have a 
very substantial backlog of deferred maintenance. Again, 
referring to my previous military career, I found that the 
first dollar usually goes to the pointy edge of the spear, or 
for the men and women who carry the spear, and then every year 
a decision is made to accept risk on facilities and 
infrastructures, and, you know, defer it one more year. Well, 
one more year becomes two more years, becomes 10 more years, 
and then ultimately you get to a tipping point in terms of our 
facilities, and I think that's where we are in NNSA and in 
other parts of the deal, in the laboratories that are out there 
with some facilities dating back to the Manhattan Project that 
you referred to earlier.
    So Secretary Moniz laid down a--threw down the gauge a 
couple years ago and said that he wanted to arrest the halt in 
the growth of deferred maintenance for the Department of Energy 
as a whole, including NNSA. So with the fiscal year 2016 budget 
that thankfully you all enacted at the end of last year, we've 
essentially halted it at the 3 point I think 7, is what I would 
say, $3.7 billion level, and with 2017, we actually start to go 
down.
    Now, we're exploring alternative ways of financing new 
facilities to get out of these old facilities that include 
using third-party financing. We have an enormous successful 
example of that in the Kansas City National Security Campus, 
which we reduced, got out of an old building that dated back to 
World War II, reduced our footprint from 3 million down to 1 
million square feet. We've asked for money in this budget to 
demolish that particular facility.
    So we're serious about looking for, whether it's a capital 
construction project or a third-party financing or an operating 
lease approach to do that, we're looking for new facilities to 
get our people in, and at the same time, to reduce the 
footprint and to demolish the buildings that are there now.
    The one problem we do have with demolishing some of our 
buildings is if they are contaminated, we have to go through a 
very long tedious and expensive process of cleaning up the 
contamination before we can turn it over to that part of DOE 
that does the demolition.
    Senator Feinstein. Well, let me--what are your estimates? 
How--the $3.2 billion in deferred maintenance, did you have 
specific plans for meeting that, or are you just going to 
ignore it?
    General Klotz. No, we have a specific plan, and we'd be 
happy to share that plan for you in terms of----
    Senator Feinstein. I would appreciate it.
    General Klotz. Yes, ma'am. I'd be delighted to do it.
    Senator Feinstein. And your staff.
    General Klotz. Yes, absolutely.
    Senator Feinstein. That would be just fine.
    General Klotz. Yes, ma'am.
    Senator Feinstein. Thank you. That's it, I think, unless we 
want to debate a nuclear cruise missile more, which I don't 
think you do.
    [Laughter.]
    General Klotz. I'd love to come up and just sit down with 
you in your office and pursue that further.
    Senator Feinstein. Sure. I'd be happy to, actually.
    Senator Alexander. I might come watch.
    [Laughter.]
    General Klotz. I'll invite Admiral Haney to come over.
    Senator Alexander. It would be better than the Republican 
debates.
    [Laughter.]
    Senator Alexander. Probably more informative.
    Senator Feinstein. I don't belittle people.
    Senator Alexander. No, no, no, you don't. I'm not getting 
into this with--I'm sorry--I'm sorry I even brought it up.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time. The subcommittee requests all responses to 
questions for the record be provided within 30 days.

                          SUBCOMMITTEE RECESS

    I want to thank General Klotz, Admiral Caldwell, Ms. 
Harrington, and General Davis, I want to thank all four of you 
for being here and thank you for the work you do for our 
country. We'll look forward to following up with you.
    The committee will stand adjourned.
    [Whereupon, at 3:35 p.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
